               ‐
                

                     U.S. ENVIRONMENTAL PROTECTION AGENCY 

                     OFFICE OF INSPECTOR GENERAL 




                     Audit of American Recovery and
                     Reinvestment Act Cooperative
                     Agreement 2A-00E85701 Awarded
                     to the Greater Lansing Area
                     Clean Cities

                     Report No. 14-R-0088                    January 9, 2014




Scan this mobile
code to learn more
about the EPA OIG.
Abbreviations

CFR               Code of Federal Regulations
EPA               U.S. Environmental Protection Agency
GLACC             Greater Lansing Area Clean Cities
IPA               Independent Public Accounting
OG&C              Ollie Green & Company
OIG               Office of Inspector General



Hotline 	                                      Suggestions for Audits or Evaluations
To report fraud, waste or abuse, contact       To make suggestions for audits or evaluations, 

us through one of the following methods:       contact us through one of the following methods:


email:    OIG_Hotline@epa.gov                  email:    OIG_WEBCOMMENTS@epa.gov
phone:    1-888-546-8740                       phone:    1-202-566-2391
fax:      1-202-566-2599                       fax:      1-202-566-2599
online:   http://www.epa.gov/oig/hotline.htm   online:   http://www.epa.gov/oig/contact.html#Full_Info

write:	   EPA Inspector General Hotline        write:    EPA Inspector General Hotline 

          1200 Pennsylvania Avenue, NW 
                 1200 Pennsylvania Avenue, NW
          Mailcode 2431T                                 Mailcode 2431T 

          Washington, DC 20460
                          Washington, DC 20460
                        U.S. Environmental Protection Agency 	                                               14-R-0088
                                                                                                        January 9, 2014
                        Office of Inspector General


                        At a Glance
Why We Did This Review              Audit of American Recovery and Reinvestment Act
                                    Cooperative Agreement 2A-00E85701 Awarded to the
The U.S. Environmental
Protection Agency (EPA)             Greater Lansing Area Clean Cities
awarded American Recovery
and Reinvestment Act                 What the IPA Auditor Found
cooperative agreement
2A-00E85701 to the Greater          The IPA found that the costs claimed by GLACC were         GLACC awarded
Lansing Area Clean Cities           generally not allowable because two contracts with         contracts with conflicts
(GLACC). The Office of              conflicts of interest were awarded under the               of interest, resulting in
                                    cooperative agreement. In addition, the IPA found that     questioned costs of
Inspector General (OIG)
                                                                                               $805,759.
contracted with Ollie Green &       the accounting system used by GLACC needs
Company, an independent             improvement to better identify costs by project.
accounting (IPA) firm, to audit
the agreement. The objectives       The IPA found that except for the two contracts with conflicts of interest, GLACC
of the audit were to determine      complied with the procurement requirements of the Code of Federal Regulations
whether GLACC’s costs               (CFR) under 40 CFR Part 30 and the applicable Recovery Act requirements. The
claimed and procurements            IPA also found that GLACC met all cooperative agreement objectives.
under the cooperative
agreement complied with the         In addition, the IPA identified a concern about GLACC’s lack of physical entity,
applicable federal requirements     which increased the government’s risk that the work under the cooperative
and whether GLACC met the           agreement may not be completed.
Recovery Act requirements and
cooperative agreement               The IPA is responsible for the content of the audit report. The OIG performed the
objectives.                         procedures necessary to obtain reasonable assurance about the IPA’s
                                    independence, qualifications, technical approach and audit results. Having done
This report addresses the           so, the OIG accepts the IPA’s conclusions and recommendations.
following EPA themes:
                                     Recommendations
  Making a visible difference
   in communities across the        The IPA’s report recommended that the Region 5 Regional Administrator
   country.                         require GLACC to recover the questioned costs of $805,759 due to
  Addressing climate change        conflicts of interest. The report also recommended that the Regional
   and improving air quality.       Administrator verify that GLACC’s accounting system is adequate for
  Launching a new era of           providing accurate and complete disclosure of financial results of each
   state, tribal and local          federally sponsored program, as required by 40 CFR 30.21(b)(1), prior to
   partnerships.                    any future award.

                                    GLACC disagreed with the findings and recommendations. Region 5 disagreed
                                    with the accounting system issue, and stated that the region did not have
                                    sufficient information to comment on the conflict of interest issue.

For further information,
contact our public affairs office
at (202) 566-2391.

The full report is at:
www.epa.gov/oig/reports/2014/
20140109-14-R-0088.pdf
                         UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                      WASHINGTON, D.C. 20460


                                                                                    THE INSPECTOR GENERAL




                                            January 9, 2014

MEMORANDUM

SUBJECT:	 Audit of American Recovery and Reinvestment Act Cooperative
          Agreement 2A-00E85701 Awarded to the Greater Lansing Area Clean Cities
          Report No. 14-R-0088

FROM:	        Arthur A. Elkins Jr.

TO:	          Susan Hedman, Regional Administrator
              Region 5

This memorandum transmits the final report for the audit of American Recovery and Reinvestment Act
cooperative agreement 2A-00E85701 awarded to the Greater Lansing Area Clean Cities.

The independent public accounting (IPA) firm Ollie Green & Company conducted this audit on behalf
of the Office of Inspector General (OIG) of the U.S. Environmental Protection Agency (EPA). The audit
was required to be conducted in accordance with Government Auditing Standards, issued by the
Comptroller General of the United States. The IPA is responsible for the audit report and the
conclusions expressed in that report. The OIG performed the procedures necessary to obtain a
reasonable assurance about the IPA’s independence, qualifications, technical approach and audit results.
Having done so, the OIG accepts the IPA’s conclusions and recommendations.

The IPA’s full report is attached. The OIG prepared a status of recommendations and potential monetary
benefits table that summarizes the findings the IPA has identified and the corrective actions it
recommends. The recommendations represent the opinion of the IPA and the OIG, and do not
necessarily represent the final position of the EPA. EPA managers, in accordance with established audit
resolution procedures, will make a final determination on matters in this report.

Action Required

In accordance with EPA Manual 2750, you are required to provide us your proposed management
decision on the findings and recommendations contained in this report before you formally complete
resolution with the recipient. Your proposed management decision is due in 120 days, or on May 9,
2014. To expedite the resolution process, please also email an electronic version of your management
decision to adachi.robert@epa.gov.

Your response will be posted on the OIG’s public website, along with our memorandum commenting on
your response. Your response should be provided as an Adobe PDF file that complies with the
accessibility requirements of Section 508 of the Rehabilitation Act of 1973, as amended. The final
response should not contain data that you do not want to be released to the public; if your response
contains such data, you should identify the data for redaction or removal. This report will be available at
http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Richard Eyermann,
acting Assistant Inspector General for Audit, at (202) 566-0565 or eyermann.richard@epa.gov; or
Robert Adachi, Product Line Director, at (415) 947-4537 or adachi.robert@epa.gov.
    Audit of American Recovery and 

 Reinvestment Act Funded Cooperative 

Agreement No. 2A-00E85701 awarded to 

                  the 

   Greater Lansing Area Clean Cities 

November 20, 2013


Mr. Robert Adachi, Director of Forensic Audits
U.S. Environmental Protection Agency
Office of Inspector General
San Francisco, CA 94105

Mr. Adachi:

Please find attached a copy of the final audit report of our
Recovery Act audit of Cooperative Agreement No. 2A-
00E85701 awarded to Greater Lansing Area Clean Cities
(GLACC) on July 21, 2009. Our audit was conducted in
accordance with the terms and conditions of Contract No. EP-
G12H-00536 dated September 21, 2012 and Government
Auditing Standards, Revised 2011.

We appreciate the opportunity to have worked with the U.S
Environmental Protection Agency, Office of Inspector
General. Please contact me with any questions you may
have.


Sincerely,




Ollie Green, MBA, CPA
Managing Partner
Audit of American Recovery and Reinvestment Act                                                                          14-R-0088
Cooperative Agreement No. 2A-00E85701 Awarded to the
Greater Lansing Area Clean Cities


                                       Table of Contents
    Introduction .................................................................................................................     1


         Purpose...................................................................................................................    1

         Background .............................................................................................................      1

         Scope and Methodology .........................................................................................               1


    Results of the Audit ....................................................................................................          3


         Cost Allowablity.......................................................................................................       3


         1 - GLACC has Conflicts of Interest on the Board of Directors and With 

             Contracted Staff……. ........................................................................................              4     


         2 - GLACC’s Accounting System Needs Improvement ..........................................                                    5


    Procurements ................................................................................................................      6


    Recovery Act Compliance .............................................................................................              6


    Cooperative Agreement Objectives ..............................................................................                    6


    Recommendations ......................................................................................................             6


    Recipient and Agency Comments .............................................................................                        6


    Ollie Green & Company Response............................................................................                         7


    Other Matter.................................................................................................................      8


         Recipient and Agency Comments .......................................................................                         8


         Ollie Green & Company Response......................................................................                          8



Appendices
    A     GLACC’s Response to the Draft Report.............................................................                            9


    B     EPA Region 5’s Response to the Draft Report ..................................................                              18 

                                  Introduction 

Purpose
            The purpose of our audit was to determine whether Greater Lansing Clean Cities
            (GLACC) costs claimed under the cooperative agreement were allowable under
            the Code of Federal Regulations (CFR) in 40 CFR Part 30; whether procurements
            under cooperative agreement 2A-00E85701 complied with 40 CFR Part 30
            requirements; whether GLACC complied with Section 1605 (Buy American),
            Section 1606 (Wage Rate Requirements/Davis Bacon Act) and Section 1512
            (Reporting) of the American Recovery and Reinvestment Act of 2009 (Recovery
            Act); and whether the objectives of the cooperative agreement were met.

Background
            GLACC was awarded cooperative agreement 2A-00E85701 by the U.S.
            Environmental Protection Agency (EPA) on July 21, 2009. The purpose of the
            cooperative agreement was to retrofit 405 public school buses with emission
            reduction equipment and replace six public school buses with lower emission
            vehicles. The cooperative agreement was later modified to reduce the number of
            retrofits to 364 and increase the number of new schools buses to 10. The total
            amount of the cooperative agreement is $1,670,325. The federal share is 64
            percent or $1,073,528 funded with Recovery Act monies and GLACC’s
            contribution is 36 percent or $596,799. The period of performance was from July
            29, 2009 through March 31, 2011. Funding for this cooperative agreement was
            part of the $300 million Diesel Emissions Reduction Act Program funded by
            Recovery Act.

Scope and Methodology

            Our Recovery Act performance audit covered the period from June 29, 2009
            through March 31, 2011. We conducted our fieldwork at GLACC in Grande
            Ledge, Michigan from November 12 to November 16, 2012, and from February
            25 to February 27, 2013. The scope of our audit was limited to determining
            whether:

                 The costs claimed under the cooperative agreement were allowable under
                  40 CFR Part 30;
                GLACC’s procurements under the cooperative agreement were conducted
                  in accordance with 40 CFR Part 30;
               	 GLACC complied with Recovery Act Section 1605 (Buy American),
                  Section 1606 (Wage Rate Requirements/Davis Bacon Act) and Section
                  1512 (Reporting); and
               	 The objectives of the cooperative agreement were met.


14-R-0088                                                                                     1
            The scope of the audit included the review of GLACC’s procurement processes
            and controls related to Recovery Act cooperative agreement transactions. Our
            work included reviewing GLACC’s solicitation, evaluation, tabulation and award
            processes related to cooperative agreement 2A-00E85701 procurements. Our
            audit methodology also included conducting structured interviews with officials at
            GLACC to gain an understanding about the internal controls, processes, systems
            and procedures used to capture, measure and report costs, process procurement
            actions, and ensure cooperative agreement objectives are met.

            We requested, received and reviewed documentation from GLACC to assess
            GLACC’s procurement processes and internal controls over procurements. This
            documentation included GLACC’s procurement policies and procedures and a
            written description of the internal controls in place during the audit period
            designed to detect and/or prevent potential errors related to the procurement
            process. We also requested, received and reviewed a list of buses that had been
            retrofitted and new bus purchases. We inspected a judgmental sample of new
            buses and retrofitted buses to validate that retrofit equipment specified in the
            cooperative agreement had been installed. We also inspected a judgmental sample
            of vendor invoices to verify that costs claimed were allowable and that program
            objectives were met. Finally, we reviewed documentation to determine
            compliance with Recovery Act requirements.

            A performance audit includes gaining an understanding of internal controls
            considered significant to the audit objectives, testing controls, and testing
            compliance with significant laws, regulations and other requirements. For this
            engagement, we obtained an understanding of GLACC’s procurement processes
            and internal controls. The testing of internal controls over this process was not
            determined to be significant to our audit objectives.

            We conducted this performance audit in accordance with generally accepted
            government auditing standards. Those standards require that we plan and perform
            the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
            for our findings and conclusions based on our audit objectives. We believe that
            the evidence obtained provided a reasonable basis for our findings and
            conclusions based on our audit objectives.




14-R-0088                                                                                       2
                            Results of the Audit 

            Our audit found that costs claimed under the cooperative agreement were
            generally not allowable because of two conflicts of interest existed during the
            period of performance. As a result, we questioned $805,759 in costs claimed as
            illustrated in Table 1 below. Our audit also found that the accounting system used
            by GLACC needs improvement.

            Except for the two instances of conflict of interest, GLACC complied with the
            procurement requirements of 40 CFR Part 30. GLACC also complied with
            applicable Recovery Act requirements and met all program objectives.

                                    Table 1
                           Summary of Questioned Costs
                               Amount
              Cost Category                 Amount Questioned Note
                               Claimed

            Personnel           $33,298                    $33,298                 1
            Fringe Benefits           0
            Travel                   92
            Equipment                 0
            Supplies              1,001
            Contractual               0
            Other             1,039,137                   $772,461                 1
            Indirect Charges          0
            Totals           $1,073,528                   $805,759
            Sources: Amounts claimed were from the recipient’s accounting system and U.S. EPA
            payment requests. Costs questioned were based on our analysis of the data.

            Note 1: We questioned $805,759 of the $1,073,528 claimed as unsupported
            because these costs were claimed under contracts involving conflict of interest. The
            $805,759 consists of $33,298 in personnel costs and $772,461 in other costs. As a
            result of the conflict of interest, we could not determine whether procurement
            decisions made by GLACC, including the contract prices, were influenced by the
            subrecipient/Board Member and/or by the contractor/Executive Director. This issue
            is explained in more detail under the section “GLACC Has Conflicts of Interest on
            the Board of Directors and With Contracted Staff.”

Cost Allowability
            Our audit found that generally, costs claimed under the cooperative agreement were
            not allowable because two conflicts of interest existed during the period of
            performance. As a result, we questioned $805,759 in costs claimed. In addition, we


14-R-0088                                                                                       3
            found that GLACC’s accounting system needs improvement in order to meet
            federal requirements.

            GLACC Has Conflicts of Interest on the Board of Directors and With
            Contracted Staff

            Our audit found that GLACC has conflicts of interest on the Board of Directors
            and with contracted staff. The first conflict of interest involved the appointment of
            a subrecipient’s family member to GLACC’s Board of Directors on June 14,
            2010. The subrecipient was paid $772,461 under the cooperative agreement. The
            second conflict of interest involved GLACC’s use of a contractor to provide
            professional services while also appointing one of the contractor’s owners as
            GLACC’s Executive Director. The contractor was paid $33,298 under the
            cooperative agreement.

            According to 40 CFR 30.42, the recipient shall maintain written standards of
            conduct governing the performance of its employees engaged in the award and
            administration of contracts. No employee, officer, or agent shall participate in the
            selection, award, or administration of a contract supported by Federal funds if a
            real or apparent conflict of interest would be involved. Such a conflict would arise
            when the employee, officer, or agent, any member of his or her immediate family,
            his or her partner, or an organization which employs or is about to employ any of
            the parties indicated, has a financial or other interest in the firm selected for an
            award. The officers, employees, and agents of the recipient shall neither solicit
            nor accept gratuities, favors, or anything of monetary value from contractors, or
            parties to subagreements.

            Our audit found no written internal controls or firewalls designed to mitigate the
            impact of the aforementioned conflicts. As a result, we could not determine
            whether procurement decisions made by GLACC were influenced by the
            subrecipient/Board Member and/or by the contractor/Executive Director. We
            therefore question $805,759 in costs paid to the subrecipient and to the contractor.

            Board of Directors Conflict

            GLACC’s audit coordinator indicated that a subrecipient’s family became a Board
            member after the proposal process and partner selection and after the EPA
            awarded the grant. He was elected as a Board member during the grant period
            after GLACC learned of his qualifications, experience and interest in supporting
            GLACC’s mission. The audit coordinator said that GLACC’s Board had fully
            disclosed and was transparent about the appointment of the subrecipient’s family
            member to the Board. In addition, he said the individual’s presence on the Board
            had no influence on the amount of funds paid to the subrecipient. Our audit did
            not identify any special measures taken by GLACC to recuse the subrecipient’s
            family member/Board member from participating on GLACC business dealing



14-R-0088                                                                                      4
            with subrecipient transactions. Therefore the conflict of interest was not
            mitigated.

            Outside Consulting Conflict

            The audit coordinator indicated that the contractor who also served as GLACC’s
            Executive Director has never served on GLACC’s Board and has no voting
            privileges. This individual worked under the direction of the Board of Directors.
            He further indicated that this individual is a 50% owner of the contractor
            company which has fully managed GLACC’s operations under a contract with
            GLACC since February 2007. At the time of the grant proposal development and
            award, the contractor was already under contract to provide full management
            services for GLACC, including proposal development and grant administration.
            During the contract that covered the first part of this grant management period
            July 2009 through June 2010, GLACC was contractually obligated to continue
            using the contractor for the management of all grants. He indicated that for the
            grant period continuing July 2010 through March 2011, the GLACC Board
            renewed the contract with the contractor for management of the grant and other
            services.

            We acknowledge that GLACC had contracted with the contractor company prior
            to being awarded the cooperative agreement. Our audit found no special measures
            taken by GLACC to mitigate the inherent conflicts of interest of having a
            contractor perform the functions of GLACC’s Executive Director. These inherent
            risks include having responsibility for GLACC’s procurements, check signatory,
            disbursements and other decision making responsibilities of an executive director
            while also serving as a contractor.

            GLACC’s Accounting System Needs Improvement

            Our audit found that the accounting system used by GLACC needs improvement.
            We found that the accounting system established by GLACC could not generate
            cost reports by project. For example, GLACC could not provide reports to capture
            total program costs, cash receipts, and cash disbursements related to cooperative
            agreement transactions without explanation and/or significant adjustments. Title
            40 CFR 30.21(b)(1) requires the recipients’ financial management systems to
            provide for accurate, current and complete disclosure of the financial results of
            each federally-sponsored project or program in accordance with the reporting
            requirements set forth in 40 CFR 30.52. Our audit found that GLACC had not
            properly designed the accounting system to segregate transactions by project. As a
            result, some reports generated by GLACC contained other information that
            required explanations and/or adjustments to be useful. Despite the accounting
            system issue, we were able to reconcile and verify the costs claimed under the
            cooperative agreement to the accounting system data when used in conjunction
            with hard copy documentation; therefore, we did not question costs under this
            issue.

14-R-0088                                                                                       5
Procurements
            Our audit found that except for the two conflicts of interest discussed above under
            “GLACC Has Conflicts of Interest on the Board of Directors and With Contracted
            Staff”, GLACC complied with the procurement requirements of 40 CFR Part 30.

Recovery Act Compliance

            The objective of this component of our audit was to determine GLACC’s
            compliance with Recovery Act requirements under Section 1605 (Buy American),
            Section 1606 (Wage Rate Requirements/Davis Bacon Act) and Section 1512
            (Reporting). Our audit found that Section 1605 (Buy American) and Section 1606
            (Wage Rate Requirements/Davis Bacon) were not applicable to the projects under
            the cooperative agreement. We found that GLACC submitted the Section 1512
            reports timely and reported the jobs created and retained in accordance with the
            requirements.

Cooperative Agreement Objectives

            The objective of the cooperative agreement was to retrofit 364 public school
            buses with emission reducing equipment and to replace 10 public school buses.
            Our audit found that these objectives were met.

Recommendations:
            We recommend that the Regional Administrator, Region 5:

                1.	 Recover the questioned costs of $805,759 due to conflict of interest.

                2.	 Verify that GLACC’s accounting system is adequate for providing
                    accurate and complete disclosure of financial results of each federally
                    sponsored program as required by 40 CFR 30.21(b)(1) prior to any future
                    award.

Recipient and Agency Comments

            OG&C issued a draft report on July 18, 2013, and provided copies to GLACC,
            EPA Region 5 and the OIG. We received written comments on the draft report
            from GLACC on August 27, 2013. Region 5 provided written comments on
            August 28, 2013. The exit conference was conducted with GLACC, Region 5 and
            the OIG on September 18, 2013, via teleconference.

            GLACC disagreed that there are conflicts of interest and indicated that the
            circumstances did not show a conflict in selection, implementation or
            administration of the grants provided through the cooperative agreement. EPA

14-R-0088                                                                                     6
            Region 5 i n d i c a t e d t h a t i t does not have sufficient information regarding
            the conflict of interest issue to respond to the recommendation.

            GLACC disagreed that improvements are needed with its accounting system
            and indicated that it used Quickbooks accounting software which could generate
            cost reports without explanation and/or significant adjustments. GLACC did
            acknowledge that an issue came up during the audit where Quickbooks did not
            allow for line item allocation of partial payments. EPA Region 5 disagreed with
            the finding and indicated that GLACC provided accurate and complete
            disclosure of financial results for the cooperative agreement.

            GLACC and Region 5 disagreed that Recovery Act Section 1512 reporting was not
            always timely. GLACC indicated that there were slight delays because it worked
            closely with the EPA to ensure that reports were correct prior to final submission.
            Subsequent to the final exit conference, Region 5 provided evidence to show that
            the delays were within the extensions allowed by the Recovery Accountability and
            Transparency Board.

            GLACC and Region 5 disagreed with the salvaged bus issue. GLACC indicated that
            the buses were salvaged as a result of more stringent interpretation of the inspection
            requirements by the Michigan State Police. Region 5 stated that the buses were
            retrofitted in accordance with the cooperative agreement requirements and that the
            salvage was due to circumstance beyond GLACC’s control.

            The full text of GLACC’s and Region 5’s written responses are attached in
            Appendix A and B respectively.


Ollie Green & Company Response

            Based on comments from GLACC and Region 5, along with the documentation
            subsequently provided, we have removed the issues relating to the Recovery Act
            Section 1512 reporting and salvaging of retrofitted buses. Our positions on the
            conflict of interest and accounting system issues remain unchanged. The
            subrecipient’s family member was on GLACC’s Board and the contractor served
            as GLACC’s Executive Director. Both parties appeared to have been involved in
            the administration of the contract, contrary to the codes of conduct under 40 CFR
            30.42. On the accounting system issue, we found that several reports provided
            during fieldwork did not capture total program costs, cash receipts, and/or cash
            disbursements related to the cooperative agreement without explanation and/or
            significant adjustments. GLACC also acknowledged the system’s inability to
            allocate partial payments to line item costs. This issue was problematic
            throughout the audit.

            Details of our responses to GLACC’s and Region 5’s comments are embedded as
            text boxes in Appendix A and B respectively.

14-R-0088                                                                                           7
                                   Other Matter 

            GLACC is a 501(c)(3) nonprofit entity created in 2005. GLACC is a coalition of
            stakeholders working to achieve cleaner air and energy security in mid-Michigan
            through alternative fuel and vehicle usage and fuel economy practices. GLACC
            certified in its representations and certifications that it had the legal authority to
            apply for Federal assistance and the institutional, managerial, and financial
            capacity to ensure proper planning, management and completion of the project
            described in its application. However, we found during our audit that GLACC had
            no employees, no office or equipment and consisted only of a Board of Directors.
            All administrative and operational responsibilities related to cooperative
            agreement 2A-00E85701 had been outsourced to an outside contractor. GLACC
            used two subrecipients to carry out the project requirements of the cooperative
            agreement. The lack of physical entity increased the risk to the government that
            the work under the cooperative agreement may not be completed. We believe the
            government should consider this risk in future grant awards.

Recipient and Agency Comments

            GLACC disagreed that the lack of physical entity increases the level of risk to the
            government that the project may not be completed nor does it agree that this should
            affect GLACC’s eligibility to receive grants. Region 5 did not comment on this
            issue.

            The full text of GLACC’s and Region 5’s written responses are attached in
            Appendix A and B respectively.


Ollie Green & Company Response

            While we understand the limitations of a small non-profit organization, we
            believe the lack of physical entity and having a contractor acting on behalf of the
            entity are risks that the government should considered in its award decisions. We
            have modified the final report to advise the government of the risks rather than
            recommending the government to reevaluate its decisions to award grants to
            GLACC.

            Details of our responses to GLACC’s and Region 5’s comments are embedded as
            text boxes in Appendix A and B respectively.




14-R-0088                                                                                         8
                                                                               Appendix A




                    GLACC Response to Draft Report
August 28, 2013

Mr. Ollie Green
Ollie Green and Company, CPAs
1300 South Fourth Street,
Suite 100
Louisville, KY 48208

Dear Mr. Green,

Greater Lansing Area Clean Cities (GLACC) provides this written response to audit findings
dated July 18, 2013 documented by Ollie Green & Company, contractor to the Office of
Inspector General, relative to GLACC's Ameri can Recovery and Reinvestment Act EPA
Cooperative Agreement {cooperative agreement) No. 2A-OOE85701. GLACC's responses to
each finding are outlined below.

Before addressi ng those items however, GLACC wishes to remind you that the project as
implemented fulfilled the objectives of the American Recovery and Reinvestment Act by
allowing GLACC and its subrecipients to receive valuable funding to acquire EPA
approved environmental equipment and as a result enabled jobs to be retained and created
both locally and nationally. This effort extended the life, utility and mileage efficiency of
school buses in the region. The installation of this equipment also provided important
environmental and health benefits. In fact, eighty-five {85) percent of one of the
subrecipient's passengers are youth with special needs, including some with asthmatic
conditions. The buses operate largely in municipal areas, which already present air
pollution concerns.The use of the retrofitted buses unquestionably reduced pollutants that
would be emitted otherwise from the buses.




14-R-0088                                                                                    9
1. GLACC Has Conflicts of Interest on the Board of Directors
   and With Contracted Staff:

Specifically the draft Audit Report states:

   {Our audit found no written internal controls or firewalls designed to mitigate the impact
   of the aforementioned conflicts. As a result we could not determine whether procurement
   decisions made by GLACC were influenced by the subrecipient/Board Member and/or by
   the contractor/ Executive Director. We therefore question $805,759 ($772,461 + $33,298)}
   in costs paid to the subrecipient and to the contractor.}

A review of the circumstances do not show a conflict in selection, implementation or
administration of the grants provided through the cooperative agreement.

GLACC does have a written Conflict of Interest policy contained in the organization's Articles of
Incorporation & Bylaws, Rules of Administrative Procedure as amended January 30, 2008
(Article X, Sec.5, Conflict of Interest), which states:

   No particular matter of GLACC shall, in the absence of fraud, be affected or
   invalidated by the fact that the personal representative of GLACC of any member
   organization of GLACC, or any corporation, firm or association of which he or she may
   be a director, officer, stockholder, or member, may be a party to or an interest, pecuniary
   or otherwise, in any such matter, provided that the nature and extent of his or her
   interest was disclosed to or known by the entire membership before acting on such matter,
   and provided that the representative did not participate in the matter.

Additi onal responses related to each noted conflict of interest is included below.

Board of Directors Conflict

Relative to this finding, the draft Audit report states:

{Our audit did not identify any special measures taken by GLACC to recuse the
subrecipient's family member/ Board member from participating on GLACC business
dealing with subrecipient transactions. Therefore the conflict of interest was not
mitigated.}

The subrecipient's family member was approached to be a volunteer Board Member of GLACC
after demonstrating extensive knowledge and expertise in the area of environmental best
practices and green fleet issues. This individual provided the organization with a skill set that
further enhanced its mission to improve air quality in the region for the public benefit. As a
501C3 organization with limited resources, this individual brought specific skills to the
organization that have benefited the region GLACC serves.

The relationship of the Board Member to the subrecipient company was fully disclosed, and
potential conflicts of interest were discussed prior to approval to the Board. GLACC as noted

14-R-0088                                                                                       10
maintains a written conflict of interest policy in its articles of incorporation, which governs board
action and daily business. This policy has been reviewed during A133 audits. GLACC's Board
understood its obligation to protect the interest of EPA and believes that in good faith it has
adequately demonstrated no conflict of interest existed during the selection, award and
administration of this project and that it took steps to ensure work plans were followed.

As stated in the draft Audit Report, the subrecipient's family member was elected to the Board on
June 14, 2010 long after the proposal process and partner selection was made, also substantially
after the grant was awarded on July 21, 2009, and even after bidding for equipment was
complete on January 21, 2010. The subrecipient's family member had no influence on the
amount of funds paid.

As a safeguard and firewall, the GLACC Project Administrator established a process for the
subrecipient to submit reports and requests for reimbursement for eligible funds paid under the
approved project plan. The GLACC Project Administrator reviewed subrecipient reimbursement
requests in comparison to the work plan and determined if costs were allowable under the
approved grant plan prior to requesting reimbursement from the EPA for approved technology.
This administrative process, which did not require Board action, was established in consultation
with EPA to ensure funds were spent within the approved work plan and provided a control
measure for reimbursing approved project expenses.

In addition, any funds whenever received by the subrecipient were passed on to a third party
vendor selected through a bidding process. The subrecipient received no funds for its expenses,
installation or maintenance of equipment purchased through the grant. The grant was in the final
phase of administration at the time when the subrecipient's family member actually joined the
Board for his first actual Board meeting on January 11, 2011. All installation of equipment
finished on March 31, 2011.

In short, following the election of the subrecipient's family member to the GLACC Board, the
Board made no decisions and conducted no business relative to the selection, award, or
administration of contracts with the subrecipient, and thus there .was no occasion which
necessitated the subrecipient's family member to be recused from participation. Had it been
necessary for the Board to conduct business relative to the grant following the election of the
subrecipient's family member to the Board, the subrecipient's family member would not have
participated in the matter pursuant to the organization's conflict of interest policy stated above.

GLACC disputes this finding. No conflict of interest existed pursuant to 40 CFR Part
30.42.

Outside Consulting Conflict

Relative to this finding, the draft Audit Report states:

{We acknowledge that GLACC had contracted with the contractor company prior to being
awarded the cooperative agreement. Our audit found no special measures taken by GLACC to


14-R-0088                                                                                             11
mitigate the inherent conflicts of interest of having a contractor perform the functions of
GLACC's Executive Director.}

The draft report does not indicate what “inherent conflicts of interest” means, or what conflict of
interest is perceived to have existed. GLACC has, since 2007, contracted a professional firm to
provide services to the organization, including functioning as contracted staff under the
supervision of the Board of Directors. It is a common practice for nonprofit organizations to
utilize contractors to perform duties, including leadership roles, to fulfill the mission of the
organization in a cost-effective and efficient manner. The role of Executive Director has no, nor
had at the time of the proposal or during the grant period, voting privileges and, thus, had no
decision-making authority, nor influence over procurement decisions involving the contractor. In
this case, GLACC also adhered to its Conflict of Interest policy stated above.

GLACC disputes this finding. No conflict of interest existed pursuant to 40 CFR Part
30.42.

 OG&C Response 1. We disagree with GLACC’s position that no conflict of interest
 existed in the selection, implementation or administration of the grants provided through
 the cooperative agreement. We acknowleged during the audit that GLACC had conflict of
 interest policies and procedures in its Bylaws. However, we found no controls in place to
 ensure that the subrecipient family member and executive director recused themselves on
 matters related to their contracts. Both the subrecipient family member and the
 Executive Director participated in the administration of the cooperative agreement in their
 respective roles as Board Member and Executive Director of GLACC. This condition is
 contrary to the conflict of interest requirements of 40 CFR 30.42. Title 40 CFR 30.42
 states that “The recipient shall maintain written standards of conduct governing the
 performance of its employees engaged in the award and administration of contracts. No
 employee, officer, or agent shall participate in the selection, award, or administration of a
 contract supported by Federal funds if a real or apparent conflict of interest would be
 involved. Such a conflict would arise when the employee, officer, or agent, any member of
 his or her immediate family, his or her partner, or an organization which employs or is
 about to employ any of the parties indicated herein, has a financial or other interest in the
 firm selected for an award.” Because we found no written controls specifically designed
 to address the subrecipient family member and Executive Director conflicts that existed,
 no change is made to this finding.


2. GLACC’s Accounting System Needs Improvement

The draft Audit Report states:

{Our audit found that the accounting system used by GLACC needs improvement. We
found that the accounting system established by GLACC could not generate cost reports by
project. For example, GLACC could not provide reports to capture total program costs, cash
receipts, and cash disbursements related to cooperative agreement transactions without
explanation and/or significant adjustments. Title 40 CFR 30.21 (b}{l} requires the recipients

14-R-0088                                                                                        12
' financial management systems to provide for accurate, current and complete disclosure of
the financial results of each federally -sponsored project or program in accordance with the
reporting requirements set forth in Title 40 CFR 30.52. Our audit found that GLACC had
not properly designed the accounting system to segregate transactions by project. As a
result, some reports generated by GLACC contained other information that required
explanations and/or adjustments to be useful.}

GLACC uses Quickbooks accounting software, which could generate cost reports by
project without explanat ion and/or significant adjustments. GLACC provided numerous
project cost reports, including total program costs, cash receipts, and cash
disbursements, generated by Quickbooks without explanation required. The auditor
requested all reports be exported into spreadsheets and did not view the actual
Quickbooks accounting system files. The perception of the system being incapable of
generating these reports was due to the requests that reports be exported and
manipulated in different software.

One Quickbooks issue did exist whereby bills entered into the system would not allow
for line item allocation of partial payments. As GLACC previously shared with the
auditor, this issue was corrected with a software update and GLACC adopted new
procedures during the project. This single issue required additional explanation on one
report type requested by the auditor's staff only.

GLACC disputes this finding and maintains the organization complied with
the referenced federal regulations.

 OG&C Response 2. We disagree with GLACC’s position that the Quicksbooks
 accounting system always generated cost reports that required no explanation and/or
 significant adjustments. Several reports provided during fieldwork did not capture total
 program costs, cash receipts, and cash disbursements related to cooperative agreement
 transactions without explanation and/or significant adjustments. GLACC acknowledged in
 its response that the system would not allow for line item allocation of partial payments.
 This was problematic throughout the audit. Other issues included duplicate check
 numbers and missing check numbers on cash disbursement transaction requests. Title 40
 CFR 30.21(b)(1) requires the recipients’ financial management systems to provide for
 accurate, current and complete disclosure of the financial results of each federally-
 sponsored project or program in accordance with the reporting requirements set forth in 40
 CFR 30.52. No change is made to this audit finding.


3. GLACC Did Not Always Submit Required Section 1512 Reporting
   On a Timely Basis.
Relative to this finding, the draft Audit Report states:

{We found substantial compliance with ARRA requirements. However, we found that
reporting was not always timely.}; and, {Our audit found that GLACC did not have

14-R-0088                                                                                     13
adequate controls and procedures in place to ensure that ARRA Section 1512 reports are
submitted on a timely basis. This lack of control caused two of the three quarterly reports
selected in our sample to be submitted late. GLACC's audit coordinator indicated that
GLACC has implemented procedural changes to ensure proper reporting on federally funded
projects.}

GLACC did have controls and procedures in place to ensure that ARRA Section 1512
reports were submitted on a timely basis; however, as this was the first cooperative
agreement administered by GLACC, the organization worked closely with the EPA
to ensure reports were completed correctly prior to final submission. This process led
to some slight delays in report submission in the two cited examples, twelve days and four
days respectively. As previously indicated, based on experience gained through
administering this grant, GLACC will ensure timely reporting for any future federally
funded projects.

GLACC acknowledges this finding, but requests the finding be closed.

 OG&C Response 3. GLACC indicated that it had worked closely with EPA, Region 5 to
 ensure completeness and correctness of the reports prior to submission and that this
 process led to some slight delays. After discussing this finding with Region 5, Ollie
 Green & Company and the OIG agreed that the Late 1512 Reporting finding should be
 eliminated from the final GLACC report due to: (1) support provided by Region 5
 showing extensions allowed by the Recovery Accountability and Transparency Board for
 the reporting periods in question; and (2) confirmation obtained from the
 FederalReporting.gov helpdesk that submissions are considered timely within the
 extension timeframe.

4. GLACC's Subrecipient Salvaged 22 Percent of the Retrofitted
   Buses Within Two Years of Project Period End.

The draft Audit Report states:

{We found that 77 of the 364 {22 percent) of the retrofitted buses had been salvaged
within two years of project period end by GLACC's subrecipient. As illustrated in Table 2
below one bus was salvaged prior to project period end of M arch 31, 2011, 27 buses were
salvaged between April 1, 2011 and M arch 31, 2012 (within one year after project period
end) and 49 buses were salvaged between April 1, 2012 and M arch 31, 2013 (within two
years after project period end).

In GLACC's application for the award, there was an estimated useful life of five years or
more for the buses selected to be retrofitted. EPA awarded the cooperative agreement based
on the terms in the application and EPA adopted the application as the Statement of Work
for the project.



14-R-0088                                                                                14
GLACC's audit coordinator indicated the 77 salvaged buses did not pass the Michigan
State Police Inspection Program or they had mechanical problems. He also indicated that the
subrecipient replaced all salvaged buses with new EPA compliant buses.
While we acknowledge management’s explanation, we believe a 22 percent inspection
failure rate is unreasonably high and management should have had prior indications of
problems. The costs spent retrofitting these buses yielded no environmental benefit. As a
result, we question the cost claimed in connection with the retrofit of these 77 buses,
totaling $103,707. However, these costs are already being questioned under the Conflict of
Interest issue. Therefore, no additional costs are being questioned under this issue.}

This project included the installation of emission-reducing retrofit technologies, specifically
diesel oxidation catalysts (DOCs), on school buses with engine model years ranging from 1994
to 2003. As part of EPA DERA projects, these technologies (DOCs) are generally installed on
older buses (pre-2004) given that newer vehicles are manufactured to be lower emitting than in
the past. Projects involving retrofit technologies target a narrow window of model years -
vehicles must be old enough to necessitate the technology and yet have a reasonable expectation
of a useful life of five years. In good faith, GLACC worked with the subrecipient and the EPA to
identify eligible vehicles for inclusion and made best efforts to ensure included vehicles were
anticipated to have a useful life of five years. GLACC provided a list identifying each vehicle
and its years of use to the EPA, which was approved by the EPA.

As stated above, this type of project includes older vehicles, which are inherently more
susceptible to unforeseen issues than newer model year vehicles. With any vehicle type,
particularly those targeted by this type of technology, projecting potential issues is difficult.
School buses, especially, are subject to more stringent requirements to ensure the safety of the
vulnerable riders they transport. The Michigan State Police (MSP) Motor Carrier Division
regulates school buses in Michigan. MSP has specific regulations for operating school
transportation vehicles (Michigan Public Act 187 of 1990) that operate in the state to ensure
safety for Michigan’s school children. During the inspection process safety related concerns are
addressed with each transportation provider and resolutions are made to ensure safety. An
unusually high number of the salvaged vehicles identified in the draft Audit Report were
removed from the road as a result of this MSP inspection process becoming more stringent.
Additionally, several vehicles were involved in accidents or rendered inoperable due to
maintenance issues. In all cases, the subrecipient replaced salvaged vehicles with new EPA 2010
comp leant vehicles. This action is consistent with GLACC's mission and the objectives of the
EPA DERA program. It also resulted in the creation of an even greater economic and
environmental benefit. The fact remains that 78 percent of the retrofitted vehicles continue to
provide substantial reductions in pollutants and that, while the remaining 22 percent did not
achieve the desired five year life intended, the remaining salvaged vehicles as retrofitted did
provide pollution reduction until they were no longer usable. In addition, vehicles that replaced
the salvaged ones clearly have met the more stringent pollution reduction requirements for newer
model vehicles.

GLACC acknowledges 77 vehicles were salvaged within three years of installation as
stated; however, GLACC maintains that the organization made reasonable and best efforts
to ensure selected vehicles had an anticipated operational-life of five years or greater.

14-R-0088                                                                                     15
 OG&C Response 4. The issue has been removed from the final report based on
 subsequent evidence provided by GLACC demonstrating that the salvage was primarily
 due to more strict interpretation of the inspection requirements by the Michigan State
 Police.



5. Other Matters

Following the recommendations provided in the draft Audit Report, an additional section
has been included, which states the following:

{GLACC is a 501(c)(3) nonprofit e n t i t y created in 2005. GLACC is a coalition of
stakeholders working to achieve cleaner air and energy security in mid-Michigan through
alternative fuel and vehicle usage and fuel economy practices. GLACC certified in its
representations and certifications that it had the legal authority to apply for Federal
assistance and the institutional, managerial, and financial capacity to ensure proper
planning , management and completion of the project described in its application. However,
we found during our audit that GLACC had no employees, no office or equipment and
consisted only of a Board of Directors .All administrative and operational responsibilities
related to Cooperative Agreement 2A-OOE85701 had been outsourced to an outside
contractor. GLACC u s e d t w o subrecipients t o carry o u t t h e project requirements of the
cooperative a g r e em e nt . This lack of physical entity as described above increases the level of
risk to the government that the project may not be completed and also raises questions and
concerns about GLACC's eligibility to receive Federal government grants under these
circumstances . Based on this information, we believe that the government should
reevaluate its decisions to award grants to GLACC when these conditions exist.}

GLACC rejects the notion that "this lack of a physical entity as described above increases the
level of risk to the government that the project may not be completed and also raises questions
and concerns about GLACC's eligibility to receive Federal government grants under these
circumstances." There is no basis for this statement. Like many small nonprofit organizations,
GLACC contracts services to ensure cost-effective, professional support for development and
implementation of its programs and operations. It is quite common for nonprofit organizations to
fully contract with a management service organization or association management company to
provide administrative, executive, and program management services. As a small, community-
based nonprofit organization with a limited operating budget and led by a volunteer Board of
Directors, GLACC has effectively utilized a contractual relationship to provide a physical
presence for the organization as well as professional contracted staff. Not only is this type of
arrangement a common practice in the nonprofit sector, but it was also fully disclosed to the
government during the proposal and awarding periods.

Further, the statement that "GLACC used two subrecipients to carry out the project requirements
of the cooperative agreement" indicates a lack of understanding of the project's scope and intent.


14-R-0088                                                                                        16
The very nature of these types of projects generally involves a nonprofit organization applying
for funds on behalf of a fleet or fleets who then serve as subrecipients.

GLACC disputes thi s section and the suggestion that GLACC’s operational structure
raises questions about the organization’s eligibility for federal funds.

 OG&C Response 5. While we understand the limitations of a small non-profit
 organization, we believe the lack of physical entity and having a contractor acting on
 behalf of the entity are risks that the government should considered in its award decisions.
 We have modified the final report to advise the government of the risks rather than
 recommending
GLACC’s          the Statements:
           Closing    government to reevaluate its decisions to award grants to GLACC.

Closing Statements

GLACC maintains that the organization effectively and successfully administered this project
compliant with government standards and always under the guidance and oversight of EPA
program management staff. At no time during the first government audit in March 2010 or the
grant management process were the concerns expressed in the draft Audit Report raised. In
contrast, the EPA lauded GLACC for its effective management of the grant, which yielded
significant environmental impact and included extremely low administrative costs (less than 5%
of the award). GLACC sincerely believes that the local and national economy received benefits,
that local employment increased, and that pollution decreased, all of which have fulfilled the
purpose of the American Recovery and Reinvestment Act.

While the grant enabled GLACC to advance its objective of increasing the usage of clean
transportation technologies in the region to reduce emissions, it came at a high price. This
extensive and costly audit process will greatly deter GLACC from applying for federal funds in
the future and has caused the small organization significant financial hardship. It also caused
significant strain on GLACC's relationship with the subrecipient, who is an environmental leader
in the region, but will no longer consider comparable projects in the future due to the financial
and time-cost burden experienced through this particularly onerous audit process. Additionally,
the lengthy audit process has diverted GLACC from its mission of increasing awareness and
usage of clean fuels, vehicles, and technologies in the region, which was the goal of the project
to begin with.




                                                                                   Appendix B

14-R-0088                                                                                         17
                                                                   Appendix B

            EPA Region 5 Response to Draft Report

                 UNITED STATES ENVIRONMENTAL PROTECTION
                                 AGENCY
                                REGION 5

                          Tl 77 WEST JACKSON 

                         BOULEVARD CHICAGO, IL

                                60604-3590



                                      AUG 2 8 2011

MEMORANDUM


SUBJECT:	 Response to Draft Recovery Act Audit Report: Cooperative Agreement No.2A-
          OOE85701 Awarded to the Greater Lansing Area Clean Cities

FROM: 	       Susan Hedman, Regional Administrator
              Region 5

TO:    	      Robert Adachi, Director
              Office of Audit

Thank you for the opportunity to review the July 18, 2013 draft report entitled "Audit of
American Recovery and Reinvestment Act Cooperative Agreement No. 2A-OOE85701 Awarded
to the Greater Lansing Area Clean Cities (GLACC)."

The purpose of the audit was to determine whether the costs claimed by GLACC under the grant
were allowable; whether the procurement complied with grant regulation requirements; whether
GLACC complied with the American Recovery and Reinvestment Act of 2009, Section 1605
(Buy American), Section 1606 (Wage Rate Requirements/Davis Bacon Act), and Section 1512
(Reporting) requirements; and whether the objectives of the cooperative agreement were met.
The grant was for the purpose of retrofitting buses to reduce diesel air emissions.

The contractor performing the audit concluded that: 1) costs of $805,759 should be recovered
because of apparent conflicts of interest for two GLACC employees, and costs of $103,707
should be recovered because some buses retrofitted under the grant were subsequently taken out
of service and salvaged; 2) GLACC's accounting system was not adequate; and 3) GLACC failed
to timely and correctly report under the grant.

The Region's responses to the recommendations of the audit report are set forth below:


14-R-0088                                                                                  18
Auditor Recommendation No. 1: Recover the questioned cost of $805,759 due to a conflict
of interest. In the event that the conflict of interest issue is resolved without cost recovery, EPA
should recover the cost of $103,707 related to the buses that ended up being salvaged after the
project was implemented.

EPA, Region 5 does not have sufficient information regarding the conflict of interest issue to
respond to the recommendation at this time and suggests a careful review of materials submitted
by the Grantee in response to the audit. However, when apparent conflicts of interest are
identified, the determination regarding recovery of related costs must be based upon: 1) a real
conflict of interest, and 2) participation in the allocation of grant money. If both questions are
answered in the affirmative, costs associated with the conflict of interest would be disallowed.

Facts must be established regarding the timeline of the grant allocations and the relevant persons'
employment and specific roles with the Grantee and recipient organizations, as well as any
recusal agreements or other safeguards that may have been in place to prevent harm from any
potential conflicts.

 OG&C Response 1. Region 5 did not agree or disagree with the finding. Region 5 indicated
 that it did not have sufficient information regarding the conflict of interest issue to respond to
 the recommendation. Region 5 also discussed the criteria for cost disallowance when there is
 an apparent conflict of interest. Our position has not changed as a result of Region 5’s
 response. Therefore this finding and recommendation will remain in the report as cited.


EPA, Region 5 does not agree that the cost of $103,707 should be recovered from the salvaged
buses. The Region's position is that buses were retrofitted as per the grant requirement. The
salvaging of buses could not have been anticipated when the buses were retrofitted and Region 5
considers this occurrence beyond GLACC's control. Of the buses salvaged because they did not
pass Michigan State Police Inspection safety requirements, most were in operation for one to two
years, yielding environmental benefit during this time. Further, all salvaged buses were replaced
with new EPA-compliant buses.

 OG&C Response 2. The issue has been removed from the final report based on subsequent
 evidence provided by GLACC demonstrating that the salvage was primarily due to more
 strict interpretation of the inspection requirements by the Michigan State Police.

Auditor Recommendation No. 2: Verify that GLACC's accounting system is adequate for
providing accurate and complete disclosure of financial results of each federally sponsored
program, as required by 40 CFR 30.21 (b) (I) prior to any future award.

EPA, Region 5 found that GLACC provided accurate and complete disclosure of financial results
for this project. GLACC provided reports to EPA, segregating transactions by project, including
cost reports by project similar to the line items in the grant.




14-R-0088                                                                                             19
  OG&C Response 3. Region 5 disagreed that GLACC’s accounting system needs
  improvement as cited in the draft report and stated that GLACC provided accurate and
  complete disclosure of financial results for this project. We disagree with Region 5’s
  position. As explained under Appendix A, OG&C Response 2, several reports provided
  during fieldwork did not capture total program costs, cash receipts, and cash disbursements
  related to cooperative agreement transactions without explanation and/or significant
  adjustments. GLACC acknowledged in its response that the system would not allow for line
  item allocation of partial payments. This was problematic throughout the audit. Other issues
  included duplicate check numbers and missing check numbers on cash disbursement
  transaction requests. Title 40 CFR 30.21(b)(1) requires the recipients’ financial management
  systems to provide for accurate, current and complete disclosure of the financial results of
  each federally-sponsored project or program in accordance with the reporting requirements
  set forth in 40 CFR 30.52. No change is made to this audit finding.


Auditor Recommendation No. 3: Require GLACC to implement internal controls to ensure that
all federally funded project reports are submitted on a timely basis.

EPA, Region 5 does not agree that GLACC submitted two Section 1512 reports late. Both the
Office of Transportation and Air Quality and Region 5's Air and Radiation Division, the offices
responsible for ensuring timeliness of Section I 512 reports, found that GLACC filed their initial
reports within the appropriate I O-day timeframe.

  OG&C Response 4. As explained in Appendix A, OG&C Response 3, this issue has been
  removed from the final report.

If you have any questions regarding our response, please contact Sharleen Phillips at 312-353-
3486, or Phillips.sharleen@epa.gov.

cc: 	   George Czerniak, ARD
        John Mooney, ARD
        Diane Nelson, ARD
        Sharleen Phillips, ARD
        Pamela Blakley, ARD
        Eric Levy, RMD
        Dale Meyer, RMD
        Andre Daugavietis, ORC
        Eric Cohen, ORC
        Jan Lister, OIG
        Ollie Green & Company




14-R-0088                                                                                        20
                                  Status of Recommendations and
                                    Potential Monetary Benefits

                                                                                                                        POTENTIAL MONETARY
                                                     RECOMMENDATIONS                                                     BENEFITS (in $000s)

                                                                                                            Planned
    Rec.    Page                                                                                           Completion   Claimed    Agreed-To
    No.      No.                           Subject                      Status1      Action Official          Date      Amount      Amount

     1        6     Recover the questioned costs of $805,759 due to       U             Region 5                         $806
                    conflict of interest..                                        Regional Administrator

     2        6     Verify that GLACC’s accounting system is              U             Region 5
                    adequate for providing accurate and complete                  Regional Administrator
                    disclosure of financial results of each federally
                    sponsored program, as required by 40 CFR
                    30.21(b)(1) prior to any future award.




1    O = Recommendation is open with agreed-to corrective actions pending.

     C = Recommendation is closed with all agreed-to actions completed.

     U = Recommendation is unresolved with resolution efforts in progress.





14-R-0088                                                                                                                                 21
                                   Distribution
Regional Administrator, Region 5
Deputy Regional Administrator, Region 5
Director, Grants and Interagency Agreements Management Division,
       Office of Administration and Resources Management
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
Audit Follow-Up Coordinator, Office of Grants and Debarment,
       Office of Administration and Resources Management
Audit Follow-Up Coordinator, Region 5
Grants Management Officer, Region 5
Board of Directors, Greater Lansing Area Clean Cities




14-R-0088                                                          22
